Audit of USAID/Jordan’s Cash
Transfer Program
Audit Report Number 6-278-04-002-P
November 30, 2003




                    Cairo, Egypt
November 30, 2003


MEMORANDUM
FOR:           Director, USAID/Jordan, Anne Aarnes

FROM:          Regional Inspector General/Cairo, Darryl T. Burris

SUBJECT:       Final Report on Audit of USAID/Jordan’s Cash Transfer Program
               (Report No. 6-278-04-002-P)

This memorandum transmits our final report on the subject audit for your review and
comments. This report does not contain any recommendations.

Management Comments on the draft report were considered and included as Appendix II.

I appreciate the cooperation and courtesy extended to my staff during the audit.
(This page intentionally left blank)
Table of   Summary of Results............................................................................................. 5
Contents
           Background .......................................................................................................... 5

           Audit Objectives .................................................................................................. 6

           Audit Findings ..................................................................................................... 6

                      Did USAID/Jordan ensure that conditions precedent were met before
                      releasing cash transfer fund s to the Government of Jordan? ................... 6

                                 USAID/Jordan Effectively Managed
                                 the Cash Transfer Process............................................................ 6

                      Has USAID/Jordan’s cash transfer program progressed toward
                      achieving its intended benefits? ............................................................... 8

                                 USAID/Jordan's Management of the Cash Transfer
                                 Program Contributed to Meeting Intended Benefits.................... 8

           Management Comments and our Evaluation..................................................... 11

           Appendix I - Scope and Methodology ............................................................... 13

           Appendix II - Manageme nt Comments.............................................................. 17

           Appendix III - Listing of Conditions Precedent
           Incorporated with Amendment No. 15 .............................................................. 19




                                                                                                                                     3
(This page intentionally left blank)




                                       4
Summary of   At the request of USAID/Jordan, Regional Inspector General/Cairo performed
Results      this audit to determine if USAID/Jordan ensured that conditions precedent were
             met before releasing cash transfer funds to the Government of Jordan, and
             USAID/Jordan’s cash transfer program progressed toward achieving its intended
             benefits. (See page 6)

             USAID/Jordan ensured that conditions precedent were met before disbursing the
             cash transfer to the Government of Jordan. USAID/Jordan established effective
             controls to ensure that the Government of Jordan (1) furnished satisfactory
             evidence to support the completion of each condition precedent, and (2) met the
             general terms and conditions relating to use of the cash transfer in accordance
             with the terms of the agreement. (See page 6)

             USAID/Jordan’s cash transfer program progressed toward achieving its intended
             benefits. The cash transfer program contributed towards (1) paying the
             Government of Jordan’s external debt, (2) influencing economic policy reforms,
             and (3) realigning the Government of Jordan’s budget line items to support
             USAID initiatives through the local currency associated with the cash transfer.
             (See page 8)

             USAID/Jordan concurred with the audit findings stating that the report accurately
             describes the mission’s implementation of the cash transfer program. Appendix II
             presents management comments in their entirety. (See page 17)


Background   In June 1997, USAID approved a new strategic objective to address economic
             growth concerns in Jordan. Included as part of this strategic objective was a
             component for USAID support to improve and maintain a sustained environment
             for policy reform in Jordan through a multi- year balance of payments program in
             the form of a cash transfer. Since the inception of the strategic objective,
             USAID/Jordan has transferred $1.3 billion to the Government of Jordan. Of this
             amount, $225 million was disbursed during fiscal years 2000 through 2002, the
             period covered under this audit.

             USAID/Jordan’s cash transfer program was designed to meet three objectives: (1)
             to pay the Government of Jordan’s U.S. non- military debt and debt to multilateral
             institutions, (2) to support economic policy reforms, and (3) to realign the
             Government of Jordan’s budget line items to support USAID initiatives through
             the local currency associated with the cash transfer.

             The cash transfer program is on a grant basis. Funds provided under the cash
             transfer are used to pay the Government of Jordan’s debt, primarily to multilateral
             financial institutions. Funding is “policy based” in that disbursements are based
             upon achieving agreed-upon reform measures that support Jordan’s broader
             economic restructuring process.


                                                                                              5
Audit            Regional Inspector General/Cairo conducted this audit at the request of
Objectives       USAID/Jordan to answer the following questions:

                        •   Did USAID/Jordan ensure that conditions precedent were met before
                            releasing cash transfer fund s to the Government of Jordan?

                        •   Has USAID/Jordan’s cash transfer program progressed toward
                            achieving its intended benefits?

                 Appendix I discusses the audit's scope and methodology.


Audit Findings   Did USAID/Jordan ensure that conditions precedent were met before
                 releasing cash transfer funds to the Government of Jordan?

                 USAID/Jordan ensured that conditions precedent were met before disbursing the
                 cash transfer to the Government of Jordan. USAID/Jordan established effective
                 controls to ensure that the funds were disbursed according to Mission established
                 operating practices.

                 USAID/Jordan Effectively Managed
                 the Cash Transfer Process

                 USAID/Jordan designed the cash transfer program to withhold disbursements to
                 the Government of Jordan until it fulfilled policy-related and administrative
                 conditions precedent. USAID/Jordan established effective management controls
                 to ensure that the Government of Jordan (1) furnished satisfactory evidence to
                 support the completion of each condition precedent, and (2) met general terms
                 and conditions relating to the use of the cash transfer in accordance with the terms
                 of the agreement.

                 Policy Reform Conditions - USAID/Jordan adhered to its operating practices for
                 planning, negotiating, and monitoring the Government of Jordan’s completion of
                 each condition precedent prior to disbursement of funds for Amendment No. 15 to
                 Strategic Objective Grant Agreement No. 278-005-00.

                 Amendment No. 15 to the Strategic Objective Grant Agreement between the
                 Government of Jordan and the United States provided USAID grant funding of
                 $75 million to finance foreign exchange and local currency costs for achieving the
                 Strategic Objective.




                                                                                                   6
The Program Assistance Approval Document 1 outlined 16 policy reform
conditions for which the Government of Jordan was to achieve prior to
USAID/Jordan’s disbursement of the $75 million. Appendix III of the report
incorporates descriptions of the conditions precedent. Our review of the
documentation and interviews with key personnel from each of the strategic
objective teams confirmed that:

        •   The negotiated conditions precedent agreed to what the Strategic
            Objective teams initially developed during the planning phase.
        •   The Government of Jordan submitted documentation and evidence
            defined by the Strategic Objective teams to support achievement for
            each condition precedent.
        •   The Project Officers, the Regional Legal Advisor, and the Program
            Management Office reviewed and cleared the evidence prior to the
            transfer of funds.
        •   The Government of Jordan met the conditions precedent (described in
            Appendix III) prior to the terminal date 2 specified in Section 5.4 of the
            agreement.

Use of the Cash Transfer - USAID/Jordan’s operating practices for reviewing
and monitoring the use of the transferred funds ensured that the Government of
Jordan met the general terms and conditions relating to use of the cash transfer in
accordance with the terms of the agreement.

Amendment 1, Article 8 of the Strategic Objective Grant Agreement established
the general terms and conditions relating to the use of the cash transfer. The
Government of Jordan was to use the cash transfer to cover payments and/or
reimbursements for (1) debt owed to the U.S. Government, (2) debt owed to the
U.S. Government arising from loan guarantee transactions, (3) debt owed to
multilateral financial institutions such as the International Monetary Fund and the
International Bank for Reconstruction and Development, and (4) other debt as
agreed to by the parties.

USAID/Jordan disbursed $140 million during calendar year 2002 in three separate
payments. Our review of the financial supporting documentation combined with
interviews with USAID/Jordan personnel confirmed that:

        •   USAID/Jordan reviewed the Government of Jordan’s supporting
            documentation to verify the eligibility of the loans for
            reimbursement/and or payment.


1
  Program Assistance Approval Document – A USAID internal document for approving
non-project assistance.
2
  The date for satisfaction of any conditions precedent.


                                                                                    7
       •   The banking information (e.g. wire transfer documents, bank
           statements, banking instructions) associated with the transfer of the
           funds was consistent throughout the transfer process assuring that
           funds were deposited correctly.
       •   The amount of the loans reported by the Government of Jordan was
           accurate.

We did not identify any instances of noncompliance with laws and regulations,
inaccurate reporting, or illegal or inappropriate use of resources.

Has USAID/Jordan’s cash transfer program progressed toward achieving its
intended benefits?

USAID/Jordan’s cash transfer program progressed toward achieving its intended
benefits. The cash transfer grant mechanism was designed to help reduce
Jordan’s debt burden and support the Government of Jordan’s policy reform
efforts. USAID/Jordan’s management of the cash transfer program contributed to
the accomplishment of these objectives.

USAID/Jordan’s Management of the Cash Transfer
Program Contributed to Meeting Intended Benefits

USAID/Jordan further defined the intended achievements for each cash transfer
within the Program Assistance Approval Document and implementing
agreements. USAID/Jordan managed the activities underlying its cash transfer
program to ensure that the funds contributed towards: (1) paying the Government
of Jordan’s external debt, (2) influenc ing economic policy reform, and (3)
realigning the Government of Jordan’s budget line items to support USAID
initiatives through the local currency associated with the cash transfer. Each of
these intended benefits are further discussed below.

Payment of the Government of Jordan’s External Debt - As discussed above
under the Use of the Cash Transfer, USAID/Jordan’s cash transfer program was
designed to cover the Government of Jordan’s qualifying debt. The intended
benefit was to support Jordan’s balance of payments position and government
budget.

As of August 13, 2003, the date of audit fieldwork, USAID/Jordan’s cash transfer
program had transferred $570 million to the Government of Jordan to service
external loans to the United States, International Monetary Fund and International
Bank for Reconstruction and Development. This transfer represented 19 percent
of the Government of Jordan’s outstanding external public debt.

Influence on Economic Policy Reform - Section 11.1 to Amendment No. 1 of
the Strategic Objective Agreement specifically said that the use of a cash transfer



                                                                                 8
mechanism would include Conditions Precedent and/or Covenants designed to
make further progress towards sustained economic reform in Jordan.

USAID/Jordan designed these conditions precedent to link with the strategic goals
that the Mission was working to accomplish. For example, USAID/Jordan’s
Strategic Objective for water resources focused on issues related to inadequate
water supplies. An intermediate result under this objective was to achieve
stronger water sector institutions which would strengthen the capability of the
Ministry of Water and Irrigation to plan, monitor, implement and sustain activities
in the water sector.

In Amendment No. 15, conditions precedent were designed to link to the activities
under this intermediate result. For example, Condition Precedent No. 13 (See
Appendix III) was designed to modify the Water Authority of Jordan’s by-laws on
groundwater well usage to reduce and control over-drafting and illegal wells, and
provide substantive penalties for illegal use. The passing of this by- law would
further strengthen the Ministry of Water and Irrigation’s capabilities for
monitoring activities in the water sector.

USAID/Jordan managed the activities for the disbursement of $75 million under
Amendment No. 15 to ensure that:

       •   The project teams developed a matrix of conditions precedent in
           accordance with mission procedures to include into the agreement.
       •   The tasks and activities underlying the negotiated conditions precedent
           supported the Mission’s strategic objective and/or intermediate results.
       •   The policy reform conditions negotiated contributed further to the
           enhancement and or sustainability of economic, water, and social
           development opportunities within Jordan.

Realignment of Government of Jordan’s Budget - Section 9.3 of Amendment
No. 1 to the Strategic Objective Grant Agreement along with a Memorandum of
Understanding addressed the use of the local currency. USAID/Jordan and the
Government of Jordan were to jointly program the use of Jordanian Dinars in the
local currency account. This local currency could be used to: (1) provide
counterpart funding for ongoing USAID activities undertaken, including those
related to other strategic objectives; (2) finance economic development activities
in Jordan; (3) support regional peace initiatives; and (4) fund other development
and economic priorities.




                                                                                 9
Under USAID/Jordan’s Implementation Letter3 , the Government of Jordan agreed
to program 63.3 million Jordanian Dinars ($90 million) to support the
Government of Jordan’s Social and Economic Transformation Plan. This amount
was required under Amendment No. 15 of the Strategic Objective Grant
Agreement.

The amount programmed for local currency was allocated as follows:

          Table 1 - Programmed Use of Local Currency
                                         Allocations
                                           in ‘000                   Allocation
               Activity/Sector
                                         Jordanian                   Percentage
                                           Dinars
      Information Technology Sector              5,300                           8
      Water Sector                              23,330                          37
      Enhanced Productivity Program             15,300                          24
      Youth Sector                               3,000                           5
      Tourism Sector                             2,500                           4
      Education Sector                          13,871                          22
      Total                                     63,301                         100

Review of the supporting documentation associated with the local currency
corresponding to Amendment No. 15 along with interviews with USAID/Jordan
representatives confirmed that:

        •   The local currency was deposited and disbursed in the agreed-upon
            manner.
        •   The local currenc y was used for the intended purposes.
        •   The program agreement provided for appropriate reporting by the host
            government agency responsible for managing the account.
        •   The program agreement required that reports on the status of special
            account activity be submitted to the Mission on a quarterly basis.
        •   USAID/Jordan verified the accuracy of the host government reports
            for the special account.




3
  Implementation letters are formal correspondence between USAID and another party following a
formal agreement that obligates funding.




                                                                                           10
Management   USAID/Jordan concurred with the audit results. In its response, USAID/Jordan
Comments     stated that the audit findings accurately describe the mission’s implementation of
             the cash transfer program. Appendix II contains the full text of USAID/Jordan’s
and Our
             comments.
Evaluation




                                                                                            11
(This page intentionally le ft blank)




                                        12
                                                                                      Appendix I

Scope and     Scope
Methodology
              Regional Inspector General/Cairo conducted this audit in accordance with
              generally accepted government auditing standards. Our audit covered the period
              of fiscal year 2000 through fiscal year 2002. During this period, USAID/Jordan
              disbursed $225 million to the Government of Jordan under USAID Grant No.
              278-005-00. For purposes of our audit, we judgmentally selected the cash transfer
              activity that occurred during 2002. The scope of audit covered the following
              activities:

               Description                   Related Activity/Funds Involved With the Action
               Amendment No. 15              Provided for $75 million of USAID grant funding
               dated September 30, 2002      to finance foreign exchange and local currency
                                             costs of achieving the strategic objective upon
                                             completion of 16 conditions precedent. Selected
                                             Amendment No. 15 to review the conditions
                                             precedent.
               Calendar Year 2002 Cash       Three separate disbursements totaling $140 million
               Transfer Disbursements        paid during calendar year 2002. (Of this total, $75
                                             million was disbursed under Amendment No. 15).
                                             Selected calendar 2002 cash transfers to review the
                                             use of the cash transfer towards USAID/Jordan’s
                                             debt.
               Calendar Year 2002 Local      Provided for 63.3 million Jordanian Dinars
               Currency Program              (equivalent to $90 million) for local programming.
                                             Selected this activity to review the use of local
                                             currency.

              In planning and performing the audit, we obtained an understanding of
              USAID/Jordan’s management controls in place for:

                      •   Planning for the disbursement of each cash transfer, which included
                          USAID/Jordan’s process for the development and design of the
                          conditions precedent and controls to ensure compliance with the terms
                          of the grant for the use of the funds.
                      •   Negotiating the terms of the grant, which included USAID/Jordan’s
                          approvals and authorizations required to finalize the strategic objective
                          agreement.
                      •   Monitoring and reporting, to include USAID/Jordan’s process for
                          ensuring proper transfer and accountability of funds.




                                                                                               13
We reviewed the following supporting documentation to test the process in place
for planning, negotiating and monitoring the $75 million cash transfer for
Amendment No. 15.

       •   Program Assistance Approval Document documenting the rationale
           for selecting a cash transfer and the conditions precedent incorporated
           as part of Amendment No. 15.
       •   Terms and Conditions within Amendment No. 1 to Strategic Objective
           Grant Agreement No. 278-005-00 establishing the cash transfer and
           Amendment No. 15 for transferring $75 million.
       •   Action memoranda approving the dollar cash transfer and transfer of
           local currency to the Government of Jordan’s accounts.
       •   Supporting documents submitted by the Government of Jordan
           demonstrating achievement for each of the 16 conditions precedent.
       •   Documentation supporting the Go vernment of Jordan’s debt payment
           qualifying for reimbursement (e.g. correspondence from the Central
           Bank of Jordan and the Government of Jordan, payment vouchers).
       •   Implementation Letter No. 15CT authorizing the disbursement of $75
           million under Amendment No. 15.

We conducted the audit at USAID/Jordan in Amman, Jordan.                The audit
fieldwork was conducted from August 4 through August 20, 2003.

Methodology

To answer the first audit objective we interviewed representatives from each office
responsible for developing, reviewing, approving, and negotiating conditions
precedent for USAID/Jordan’s cash transfer program. We judgmentally selected
Amendment No. 15 of the Strategic Objective Grant Agreement because it contained
conditions precedent developed by each of USAID/Jordan’s strategic objective
teams and it was the most recent cash transfer for the audit period covered.

We reviewed each of the conditions precedent negotiated under Amendment No. 15
for the following attributes:

       •   Evidence tha t the documentation received from the Government of
           Jordan was cleared by the project offices and the Regional Legal
           Advisor.
       •   Evidence that the conditions precedent incorporated into the Program
           Assistance Approval Document were not significantly changed
           without proper justification or completely eliminated.




                                                                                14
       •   Evidence that the Ministry of Planning provided the evidence within
           the time- frame required to meet the elements for each condition
           precedent as defined within the Program Assistance Approval
           Document.
       •   Evidence that the Government of Jordan was notified in a timely
           manner that the conditions were met prior to disbursement of the
           funds.
       •   Evidence to support that USAID/Jordan verified that debt paid with the
           U.S. dollars met the terms and conditions the cash transfer agreement.
To answer the second objective, we judgmentally selected Amendment No. 15 of the
Strategic Objective Grant Agreement and tested to determine if USAID/Jordan’s
cash transfer program progressed toward achieving its intended benefits. We
performed the following procedures:

       •   Verified the impact of the cash transfer program on the Government of
           Jordan’s external debt.
       •   Reviewed if there was a correlation between the conditions precedent to
           the Mission’s strategic objectives.
       •   Reviewed the content of the evidence submitted by the government of
           Jordan to satisfy the conditions precedent.
       •   Reviewed if there was a correlation between the local currency projects
           and the Mission’s strategic objectives.
       •   Reviewed the Mission’s monitoring of the use of the local currency
           accounts.




                                                                                 15
(This page intentionally left blank)




                                       16
                                                                                      Appendix II


Management
Comments



                      UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                     JORDAN
                  P.O. Box 354                                        Unit # 70206 / APO AE 09892
                  Amman, Jordan                                         Fax # (011) 962-6-592 0143
                                                                      Phone # (011) 962-6-592 0101



   Date:    10 November 2003

   From:    Anne Aarnes, Mission Director /s/

   Subject: Management Comments for Draft Report on Audit of USAID/Jordan's Cash Transfer
            Program, (Report No. 6-278-04-00#-P)

   To: Darryl T. Burris, Regional Inspector General/Cairo


          We have reviewed the draft report on the Audit of USAID/Jordan’s Cash Transfer program,
   and we concur with the audit findings. The draft report accurately describes the mission’s
   implementation of the program. USAID/Jordan would like to thank the staff of the Office of the
   Regional Inspector General/Cairo for the professionalism displayed in the conduct of the audit.




                                                                                                 17
(This page intentionally left blank)




                                       18
                              Table 2. Listing of Conditions Precedent Incorporated with Amendment No. 15
                                                                                                         Appendix III

Condition                  Description of the Government of Jordan’s Achievement of Conditions Precedent
  No.
            In preparation for the open market sale of additional holdings of Jordan Telecommunication Corporation (JTC)
   1
            shares, the JTC Steering Committee signed a contract with a financial advisor.
            The Government of Jordan issued an international RFP to outsource the management of the National Aid Fund to a
   2
            private sector management firm.
            The Government of Jordan issued regulations consistent with WTO commitments in the following areas:
            (a) Integrated Circuits Regulation
   3        (b) Patent Regulation
            (c) Industrial Design Regulation
            (d) New Plant Varieties Regulation
            The Cabinet approved a new Securities Law with the objective of creating a regulatory environment that is
            consistent with "international best practices" and will be more attractive to investors. It will include at least the
            following provisions: (a) clear coverage of the role and powers of the Jordan Securities Commission defining the
            functions of the Jordan Securities Commission as the national securities regulator, including powers of investigation
   4
            and enforcement; (b) clear presentation of the Ro les and Powers of the Exchange and the Depository, including the
            legal form to the Exchange and the Depository; (c) a clear definition of a “security” and a Public Offering; (d) clear
            Disclosure Requirements; (e) a mechanism moving the Settlement Guarantee Fund from the Exchange to the
            Depository; and (f) granting Authority of the Depository to Enforce Securities Contracts.
            The Steering Committee for the privatization of Jordan Phosphate Mining Company signed a contract with a
   5
            financial advisor to prepare a restructuring and privatization strategy for the Jordan Phosphate Mining Company.
            The Ministry of Culture completed an assessment of the capacity of the National Library to effectively enforce
   6        Intellectual Property Rights commitments as stipulated in the Trade-Related Agreement on Intellectual Property
            Rights agreement.
            The Ministry of Planning submitted to USAID written evidence that the Cabinet has appointed a Secretary General
   7
            for the Higher Health Council.
            The Ministry of Health submitted to USAID written evidence that it initiated a situation analysis report on the
            Ministry’s continuing education system, health workers and accreditation of health facilities that includes
   8
            recommended strategy options and timeline for a sustainable continuing education system including an outline of
            incentives linked to the system.


                                                                                                                                19
Condition                  Description of the Government of Jordan’s Achievement of Conditions Precedent
  No.
            The Ministry of Health submitted to USAID a preliminary report that outlines the structure and system of the
            Ministry’s current compensation system and incentive scheme and a proposed plan to expand it to staff at the
            primary health care level and link it to job performance indicators, hardships, special skills, or other criteria. The
   9        report shall describe the current conditions governing the incentive scheme, the beneficiaries of this scheme and the
            budgetary mechanisms of collection and distribution of funds used to run it. A proposed mechanism to expand the
            current system to other beneficiaries such as primary health care center staff and link it to performance indicators
            shall be described.
            The Ministry of Health presented to USAID written evidence that at least 17 of the 34 Ministry of Health Focal
   10       Centers have in place at their centers all 5 elements of Quality Assurance (as defined by the primary health care
            initiative project).
            The Ministry of Health:
            (a) added a line item for Reproductive Health in the Ministry of Health budget, and
   11
            (b) approved a scope of work for technical assistance to develop a reasonable timeline for starting procurement of
            contraceptives leading toward contraceptive independence from donor funding.
            The Ministry of Water and Irrigation submitted to the Jordan Institute for Standards and Metrology (JISM), and the
   12       JISM has approved, revised improved domestic wastewater effluent standards under discussion between the
            Wastewater Higher Technical Committee and the committee of the Jordan Institution for Standards and Metrology.
            The Ministry of Water and Irrigation submitted to the Cabinet, and the Cabinet approved, a modification of the
   13       Water Authority of Jordan by- laws on groundwater well usage to reduce and control over-drafting and illegal wells,
            and provide substantive penalties for illegal use.
            The Ministry of Water and Irrigation submitted to the Cabinet for approval a reasonable and equitable increase in
   14       well-water tariffs for agriculture, domestic and industrial uses in accordance with national priorities and the
            economic cost of water.
            The Ministry of Water and Irrigation adopted strengthened, more effective penalties for municip al theft and illegal
   15
            use of water.
            The Ministry of Water and Irrigation developed and began implementation of an annual monitoring and reporting
   16       system for wastewater treatment plant operations to assure proper operation and maintenance and effluent standards
            are being met.




                                                                                                                                20
